2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

* E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1183

TRI-STATE ZOOLOGICAL PARK OF WESTERN
MARYLAND, INC., ANIMAL PARK, CARE &
RESCUE, INC. AND ROBERT L. CANDY,
Petitioners,

v.

PEOPLE FOR THE ETHICAL
TREATMENT OF ANIMALS, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
RESPONDENT IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 6684 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of May, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

, GENERAL NOTARY-State of Nebraska Z. 2 b j,
i RENEE J. GOSS 9. ¢ Decrease x
My Comm. Exp. September 5, 2023
Notary Public Affiant 41037
